Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      CHIROPRACTIC CARE
        Medicaid Coverage




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 1998
                      OEI-06-97-00480
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS

Clark Thomas                                             Alan Levine
Nancy Watts                                              Barbara Tedesco
Lisa White




        To obtain copies of this report, please call the Dallas Regional Office at (214) 767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                   EXECUTIVE SUMMARY

PURPOSE

To determine and describe the current and anticipated chiropractic care benefits provided under
each State Medicaid program.

BACKGROUND

Recent changes to Medicare chiropractic coverage policy under the Balanced Budget Act of 1997
require that the Health Care Financing Administration (HCFA) establish, by January 1, 2000, new
utilization guidelines for Medicare chiropractic care in cases where spinal subluxation has not
been demonstrated by x-ray. The Balanced Budget Act also eliminates the Medicare requirement
for supporting x-rays by the year 2000. Additionally, recent changes in New York State law
require private insurers to include chiropractic coverage in their benefit packages.

To better understand the impact of these changes on the Medicare and Medicaid programs and to
learn more about other forms of utilization control, we undertook this inspection resulting in two
reports. This report, "Chiropractic Care; Medicaid Coverage, (OEI-06-97-00480)" describes
current and expected chiropractic care benefits under State Medicaid programs. A companion
report, "Chiropractic Care; Controls Used by Medicare, Medicaid, and Other Payers, (OEI-04-97-
00490)" examines Medicare, Medicaid, and private insurers' mechanisms for controlling
expenditures and protecting the chiropractic benefit from potential waste and abuse.

A particular concern in the Medicaid program was whether there were any indications of potential
explosive growth in the program overall.

FINDINGS

Thirty States Report Offering Some Form of Medicaid Chiropractic Benefit Under a Fee-For-
Service Arrangement.

Twenty six States cover all categorically needy Medicaid eligible beneficiaries and twenty of these
extend coverage to those considered to be medically needy but who do not qualify for financial
assistance. All 30 States provide coverage for children under Early Periodic Screening, Diagnosis
and Treatment (EPSDT) plans.

Conditions and Chiropractic Services Which Qualify for Reimbursement Vary by State.

Twenty States reported they only reimburse manual manipulation of the spine for treatment of
spinal subluxation. Five States offer additional coverage for the treatment of back pain associated
with nerve root damage. Eight States report they cover any treatment considered medically
necessary.



                                            )))))))))))
                                                 i
States Impose a Variety of Limits on the Number and Duration of Chiropractic Treatments a
Beneficiary May Receive.

The number of chiropractic treatments a beneficiary may receive is limited in twenty six States.
These limits range from one treatment per day to one treatment per year. Some States also limit
the length of the period within which beneficiaries can receive treatment.

Twelve States Have Changed the Level of Their Chiropractic Benefit Since 1990. No
Tendency of General Expansion of Benefits is Evident, However.

Only two States adopted program changes that only limited their programs over the period. The
remainder made changes that resulted in both expansions and limits. In some cases, such as
Louisiana, later changes directly offset earlier ones, while other States expanded to include
additional beneficiaries while limiting their numbers or duration of treatments. No State reported
pending plans to expand their fee for service chiropractic benefit. Of the States reporting no
current coverage, none indicated immediate plans to add a chiropractic benefit, although South
Carolina reported the issue is under study.

Chiropractic Care Comprises a Small Proportion of Total State Medicaid Expenditures. No
Consistent Trends in Expenditures Appear. Some States Experienced Decreasing Costs over
Time, While Others Saw Only Minor Fluctuations in Expenditure Levels.

California, Iowa, Maine, Montana, and North Dakota appear to have experienced a slight
downward trend in chiropractic payments relative to total expenditures between 1994 and 1996,
while Vermont's expenditures decreased sharply. Louisiana and Indiana saw relatively large
increases in 1995 which diminished in 1996. With the exception of Louisiana, where limiting
eligibility to EPSDT beneficiaries likely drove expenditures down sharply between 1995 and
1996, we are unable to correlate States' expenditure patterns with their reported benefit coverages
and limits.

CONCLUSION

While thirty States offer some form of coverage for chiropractic care under their Medicaid fee-
for-service plans, State reported utilization data show no discernable trends suggesting explosive
growth in Medicaid expenditures. Also, no State reported legislative or regulatory plans to
expand their Medicaid chiropractic benefit beyond current coverage.

COMMENTS

The Assistant Secretary for Management and Budget (ASMB) provided comments on this report.
ASMB asked us to further explain the growth in Medicaid chiropractic expenditures in the State
of Utah. We provided this information on page eight of this report. The full text of these
comments appears in Appendix A.




                                            )))))))))))
                                                 ii
                              TABLE OF CONTENTS

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


 !        State chiropractic coverage and eligibility . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


 !        Limits to coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


 !        Changes in coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


 !        State expenditures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9





                                                             )))))))))))

                                   INTRODUCTION

PURPOSE

To determine and describe the current and anticipated chiropractic care benefits provided under
each State Medicaid program.

BACKGROUND

Chiropractic Care

Traditional chiropractic philosophy holds that the principal cause of disease is a bone out of place
along the spine. Because nerves branch off the spine between the vertebrae to every part of the
body, chiropractors theorized that a slight misalignment of the vertebrae could pinch a nerve
extending to another part of the body causing pain and disease. Relieving that pressure through
spinal manipulation should, therefore, eliminate or ameliorate the disease. Currently,
chiropractors are prohibited from prescribing drugs or performing surgery. While some are
willing to treat problems beyond back pain, many rely on x-rays to locate a kink in the spine that
may cause the back pain and limit their treatment to that ailment.

Chiropractors commonly treat patients by manual manipulation of the spine, using either their
hands or hand held devices to adjust spinal alignment. The Agency for Health Care Policy and
Research (AHCPR) has found that this method of treatment is effective for patients suffering from
acute low back problems, especially when used within the first month of symptoms.

Section 273 of the 1972 Social Security Act Amendments expanded the Medicare definition of
"physician" to include chiropractors. Expansion of this definition allowed chiropractors to
participate in the Medicare and Medicaid programs.

Current Medicaid Coverage

Coverage of chiropractic care is an optional benefit available to Medicaid beneficiaries
in some States. Medicaid coverage of chiropractic care is limited to services that are provided by
a chiropractor licensed by the State and consist of treatment by means of manual manipulation of
the spine. States may also allow chiropractors to provide and bill for x-ray services, although
there is no Federal Medicaid requirement that x-rays must be provided before services may be
reimbursed. The mechanisms used to control expenditures on chiropractic treatments vary among
the States providing benefits. Several have no restrictions and some simply require that the
treatment be deemed medically necessary. Others restrict the number of visits or length of
treatment period. Among these States, the limits range widely as well.




                                            )))))))))))
                                                 i
Medicare Coverage

Medicare chiropractic coverage is limited to manual manipulation of the spine to correct a
subluxation, defined as a functional or structural abnormality involving one or more of the
vertebrae. Medicare does not pay for spinal manipulations that provide preventative or
maintenance care. Medicare currently requires an x-ray to determine or demonstrate that a
subluxation exists. An x-ray for this purpose is covered by Medicare if ordered, taken, and
interpreted by a physician who is a doctor of medicine or of osteopathy, but not when ordered by
a chiropractor. In 1996 Medicare allowed charges for chiropractic care totaled more than $294
million and averaged about $24 per claim.

Recent changes to Medicare chiropractic coverage policy under the Balanced Budget Act of 1997
eliminate the requirement for supporting x-rays effective January 1, 2000. The Balanced Budget
Act also requires that, by the year 2000, the Health Care Financing Administration (HCFA)
establish new utilization guidelines for Medicare chiropractic care in cases where spinal
subluxation has not been demonstrated by x-ray. Additionally, recent changes in New York State
law require private insurers to include chiropractic coverage in their benefit packages.

To better understand the impact of these changes on the Medicare and Medicaid programs and
learn more about other forms of utilization control, we undertook this inspection resulting in two
reports. This report, "Chiropractic Care; Medicaid Coverage, (OEI-06-97-00480)" describes
current and expected chiropractic care benefits under State Medicaid programs. The companion
report, "Chiropractic Care; Controls Used by Medicare, Medicaid, and Other Payers, (OEI-04-97-
00490)" examines Medicare, Medicaid, and private insurers' mechanisms for controlling
expenditures and protecting the chiropractic benefit from potential waste and abuse.

A particular concern in the Medicaid program was whether there were any indications of potential
explosive growth in the program overall.

SCOPE AND METHODOLOGY

We distributed a mailed questionnaire to the Medicaid Administrators in the 50 States and the
District of Columbia. We asked each State Administrator to forward this instrument to the
individual most qualified to provide information about the chiropractic benefit. All 51
questionnaires were returned. We followed with telephone interviews where we required
clarification or additional information. Published State Medicaid plans supplemented this
information.

Although some States offer chiropractic coverage under managed care plans, because variation
between plans both within and across States is great and because encounter data about
chiropractic visits is limited, the discussion below focuses on the extent of benefits under fee for
service plans.

We conducted this inspection in accordance with the Quality Standards for Inspections issued by
the President's Council on Integrity and Efficiency.


                                             )))))))))))
                                                  ii
                                    FINDINGS

Thirty States Report Offering Some Form of Medicaid Chiropractic Benefit Under a Fee For
Service Arrangement.

Twenty six States cover all categorically needy Medicaid eligible beneficiaries and twenty of these
extend coverage to those considered to be medically needy but who do not qualify for financial
assistance. All thirty States provide coverage for children under Early Periodic Screening,
Diagnosis and Treatment (EPSDT) plans. Seventeen of these States also offer coverage to some
beneficiaries under a managed care arrangement, including Oregon, which covers 85 percent of
Medicaid beneficiaries under managed care. The remaining States and the District of Columbia
reported that they offer no fee for service Medicaid coverage of chiropractic care.

                   TABLE 1. CHIROPRACTIC COVERAGE by STATE
                MEDICALLY CATEGORICALLY                     MEDICALLY CATEGORICALLY
    STATE         NEEDY       NEEDY     EPSDT      STATE      NEEDY       NEEDY     EPSDT
ARKANSAS            T           T         T   NEBRASKA          T           T         T
                                              NEW
CALIFORNIA                      T         T   HAMPSHIRE         T           T         T
CONNECTICUT         T           T         T   NEW JERSEY                    T         T
FLORIDA             T           T         T   NEW YORK                                T
IDAHO                           T         T   N. CAROLINA       T           T         T
ILLINOIS                                  T   NORTH DAKOTA      T           T         T
INDIANA                         T         T   OHIO              T           T         T
IOWA                T           T         T   OREGON                        T         T
KANSAS                                    T   PENNSYLVANIA      T           T         T
LOUISIANA           T           T         T   SOUTH DAKOTA      T           T         T
MAINE               T           T         T   TEXAS                         T         T
MASSACHUSETTS       T           T         T   UTAH              T           T         T
MICHIGAN            T           T         T   VERMONT           T           T         T
MINNESOTA           T           T         T   WEST VIRGINIA     T           T         T
MONTANA                                   T   WISCONSIN         T           T         T




Conditions and Chiropractic Services Which Qualify for Reimbursement Vary by State.

Twenty States reported that they limit reimbursement to coverage of manual manipulation of the
spine for treatment of spinal subluxation. Five States also allow coverage for treatment of back
pain associated with nerve root damage. Eight States reported that they allow coverage of
additional treatments considered medically necessary or acceptable under State chiropractic
regulations. One State, Kansas, covers only an annual chiropractic history and physical.




                                            )))))))))))
                                                 3
                      TABLE 2. CONDITIONS COVERED, by STATE

                          SPINAL       NERVE
        STATE          SUBLUXATION    DAMAGE             OTHER or ADDITIONAL COVERAGE
ARKANSAS                     T
CALIFORNIA                   T                  Strain, Sprain or dislocation of spine or neck
CONNECTICUT                  T
FLORIDA                      T                  Other Medically Necessary Treatment
IDAHO                        T
ILLINOIS                     T
INDIANA                      T                  Medically Necessary Treatment
IOWA                         T
KANSAS                                          Chiropractic Screening Only
LOUISIANA                    T            T     Medically Necessary Treatment
MAINE                        T
MASSACHUSETTS                T            T     Medically Necessary Treatment
MICHIGAN                     T
MINNESOTA                    T
MONTANA                      T                  No Restriction By Medical Condition
NEBRASKA                     T
NEW HAMPSHIRE                T
                                                Cover Any Conditions Within Scope of Chiropractic Care
NEW JERSEY                   T            T     Under State Law
NEW YORK                     T
NORTH CAROLINA               T            T
NORTH DAKOTA                 T            T     Strains/sprains
OHIO                         T
OREGON                       T
PENNSYLVANIA                 T
SOUTH DAKOTA                 T
TEXAS                        T
UTAH                         T
VERMONT                      T
WEST VIRGINIA                T
WISCONSIN                    T

States Impose a Variety of Limits on the Number and Duration of Chiropractic Treatments a
Beneficiary May Receive.

The number of chiropractic treatments a beneficiary may receive is limited in 26 States. These
limits range from one treatment per day to one treatment per year, with Kansas reporting
coverage of a single examination with an allowed reimbursement of one dollar. Some States also
limit the length of the period within which beneficiaries can receive treatment. Four States impose
no limits, as their coverage only includes EPSDT eligible beneficiaries. Tables 3 and 4 describe
these limits and allowed exceptions, by State, as they affect Medicaid coverage of chiropractic
care. The companion report, "Chiropractic Care; Controls Used by Medicare,



                                           )))))))))))
                                                4
Medicaid, and Other Payers, (OEI-04-97-00490)", considers these limits in greater detail as they
are used to control utilization.


                      TABLE 3. LIMITS TO COVERAGE, by STATE

    STATE                  LIMITS to COVERAGE
    ARKANSAS           12 Treatments per State Fiscal Year for Adults.
    CALIFORNIA          2 Treatments per Month. (24 per year)
                       No More Than 1 Visit in 24 hours. Maximum of 4 Exams or Treatments in Single Visit to
    CONNECTICUT        Home or Nursing Facility. (60 visits per year)
    FLORIDA            24 visits per calendar year.
    IDAHO               2 Office Visits per Month. (24 per year)
    INDIANA             5 Office Visits per Year, 50 Therapeutic Treatments per Year
                       Acute Condition 40 Treatments in 6 months (80 per year)
    IOWA               Chronic Condition 2 Treatments per month
                        1 Chiropractic History per Year
    KANSAS              1 Physical
                        8 Treatments per Year Without Pre-authorization for EPSDT
    LOUISIANA          12 Treatments per Year Without Pre-authorization for Adults, Maximum of 18
                       Acute Condition 2 Treatments per Week for 1 month
    MAINE              Chronic Condition 1 Treatment per Week
                       20 Treatments per Year. State Does Not Cover Treatment and Initial Examination on the
    MASSACHUSETTS      Same Day
    MICHIGAN           18 Visits per 12 Month Period
                        6 Manipulations per Month
    MINNESOTA          24 Manipulations per Year
                       18 Visits in First 5 Months of Treatment
    NEBRASKA            1 Visit per Month Thereafter if Needed (25 per year)
    NEW HAMPSHIRE       6 Treatments per State Fiscal Year
    NEW JERSEY          1 Treatment per Calendar Day (365 per year)
    NORTH CAROLINA     24 Visits per State Fiscal Year for Combination of All Physician Services
    OHIO               4 Treatments per Month (48 per year)
    OREGON             1 Treatment per Day (365 per year)
    PENNSYLVANIA       1 Treatment per Day (365 per year)
                        1 Treatment per Day
    SOUTH DAKOTA       30 Treatments per 12 Month Period
                       12 Treatments per Benefit Period
    TEXAS              Benefit Period is 12 months Beginning With First Treatment
                       Limited to Number Appropriate for Diagnosis
    UTAH               1 Evaluation, All Additional Services are Preauthorized
    VERMONT            10 Treatments per Year
    WEST VIRGINIA      12 Treatments per 12 Month Period
    WISCONSIN          20 Treatments per Spell of Illness (New spell of illness required to exceed 20 per year)




                                                )))))))))))
                                                     5
Twelve States Allow Exceptions to Their Chiropractic Coverage Limits.

When medically necessary, treatment may continue beyond the standard limits in several States.
Most require documentation or prior authorization before allowing exceptions, however.



              TABLE 4. EXCEPTIONS TO COVERAGE LIMITS, by STATE

STATE              EXCEPTIONS TO COVERAGE LIMITS
CONNECTICUT        Authorized Treatment Must be Initiated Within 6 Months of Date of Authorization
IOWA               Medically Necessary Treatment May be Authorized Upon Review by Chiropractic Consultant
MICHIGAN           Documented Medically Necessary Treatments Can Exceed Limits
MINNESOTA          Prior Authorization and Documented Medical Necessity . Can Exceed Limit
NEW HAMPSHIRE      Overridden by Medical Director with Substantial Evidence of Medical Necessity
NORTH CAROLINA     Medically Necessary Treatment May be Authorized by Medical Director
OHIO               Medically Necessary Treatment Can be Authorized by the Department on a Case by Case Basis
SOUTH DAKOTA       Medically Necessary Treatment May be Authorized Upon Review by Chiropractic Consultant
UTAH               Additional Services May be Approved Through Preauthorization
VERMONT            Prior Authorization Based on Documentation of Medical Necessity
                   Medical Necessity Documented and Reviewed by State Chiropractic Consultant.
WEST VIRGINIA      No More Than 40 Total Treatments
WISCONSIN          Medical Necessity Reviewed by Chiropractic Consultant




Twelve States Have Changed the Level of Their Chiropractic Benefit Since 1990. No
Tendency of General Expansion of Benefits is Evident, However.

Only two States adopted program changes that only limited their programs over the period. The
remainder made changes that resulted in both expansions and limits. In some cases, such as
Louisiana, later changes directly offset earlier ones. Other States expanded to include additional
beneficiaries while also limiting the numbers or duration of treatments. No State reported
pending plans to expand their fee for service chiropractic benefit. Of the States reporting no
current coverage, none indicated immediate plans to add a chiropractic benefit, although South
Carolina reported the issue is under study.




                                                 )))))))))))
                                                      6
              TABLE 5. CHANGES IN COVERAGE SINCE 1990, by STATE

STATE                YEAR     EXPAND     LIMIT CHANGE
                      1991       T             Expanded to include adults(7/91)
                      1991                     Limited coverage to under 21 only(12/1/91)
                      1994       T         T   One x-ray per State fiscal year covered (7/94)
ARKANSAS              1996       T             Expand to all ages (7/96)
FLORIDA               1992       T             Treatment limit expanded from 12 to 24 per year
                                               Limited to EPSDT and
ILLINOIS              1995                 T   Qualified Medicare Beneficiaries
INDIANA               1992                 T   Treatment and diagnosis limits added
                      1983                 T   Limited or eliminated many services
KANSAS                1991                 T   Limited to history and physical for EPSDT
                      1995                 T   Limit to EPSDT only
LOUISIANA             1997       T             Expanded to include all Medicaid beneficiaries
                      1991                 T   Eliminated adults
                      1993       T             Reinstated adults with 12 visits per year
MICHIGAN              1996       T             Increased 12 visits to 18
NEBRASKA              1993                 T   Limited number of treatments
NEW HAMPSHIRE         1995       T             Allow coverage of x-rays
NEW JERSEY            1997       T             Added initial diagnostic visit to coverage
                                               Budget neutral. Allows chiropractor to perform x-ray, no
NORTH CAROLINA        1991                     longer requires physicians.
                                               Began x-ray reimbursement and raised limits from 6
                                               treatments to 40 per year (more than 12 require prior
WEST VIRGINIA         1992       T             approval)




Chiropractic Care Comprises a Small Proportion of Total State Medicaid Expenditures. No
Consistent Trends in Expenditures Appear. Some States Experienced Decreasing Costs over
Time, While Others Saw Only Minor Fluctuations in Expenditure Levels.

We asked States to report data for the years 1994 through 1996, distinguishing between adult and
EPSDT beneficiaries and between managed care and fee-for-service expenditures. Few reported
data in that form, either because the data was unavailable or could not be extracted in the form
requested. Several States indicated they did not maintain separate data for adult and EPSDT
beneficiaries or did not disaggregate EPSDT expenditures. Also, most States did not have
managed care data within which chiropractic expenditures were identifiable. However, 15 States
did provide financial data reflecting total Medicaid expenditures and allowed payments for
chiropractic care under their fee-for-service plans. Table 6. summarizes this information.




                                           )))))))))))
                                                7
           TABLE 6. STATE-REPORTED CHIROPRACTIC EXPENDITURES
              AND PERCENT OF TOTAL MEDICAID EXPENDITURES,
                                 by STATE
                                  1994                       1995                     1996
                        Chiropractic      %        Chiropractic      %       Chiropractic     %
        STATE            Payment         Total      Payment         Total     Payment        Total
 ARKANSAS                     36,912      0.0034          44,095    0.0035         36,407       N/A
 CALIFORNIA                  638,226      0.0064       607,915      0.0056        632,545    0.0553
 IDAHO                        42,117      0.0127          41,962    0.0117         52,622    0.0130
 INDIANA                   7,068,000      0.3020     2,822,000      0.1388      6,736,000    0.2766
 IOWA                      1,664,533      0.1665     1,676,029      0.1523      1,648,935    0.0384
 LOUISIANA                 9,177,891      0.3412    15,995,086      0.5777      4,282,654    0.1746

 MAINE                       408,795      0.0455       376,786      0.0384        359,034    0.0363
 MINNESOTA                 1,758,851      0.0811     2,246,935      0.0843      1,814,085    0.0617

 MONTANA                Not Available       N/A           15,693    0.0049         10,488    0.0031
 NEW JERSEY                  439,919      0.0111       568,693      0.0135        503,829    0.0115

 NORTH CAROLINA              459,733      0.0161       700,158      0.0208        770,540    0.0207
 NORTH DAKOTA                255,085      0.0898       231,086      0.0779        224,490    0.0753
 TEXAS                       783,882      0.0101       777,752      0.0101      1,028,304    0.0134

 UTAH                         64,451      0.0125       235,237      0.0423        349,088       N/A

 VERMONT                     166,557      0.0409       116,211      0.0345        114,374       N/A



Beyond noting that chiropractic care is a very small percentage of total Medicaid expenditures,
few overall trends are apparent. Within States, California, Iowa, Maine, Montana, and North
Dakota appear to have experienced a slight downward trend in chiropractic payments relative to
total expenditures, while Vermont's expenditures decreased sharply. In all but three of the
remaining States, chiropractic expenditures and their relative proportion of State totals
fluctuated only slightly over the three year period. Utah's expenditures increased, while
Louisiana, and Indiana saw relatively large increases in 1995 which diminished in 1996. With the
exception of Louisiana, where limiting eligibility to EPSDT beneficiaries likely drove expenditures
down between 1995 and 1996, and Utah, where chiropractic coverage began in July of 1994 and
expenditures rose over the next two years, we are unable to correlate States' expenditure patterns
with their reported benefit coverages and limits.




                                            )))))))))))
                                                 8
CONCLUSION

While thirty States offer some form of coverage for chiropractic care under their Medicaid fee-
for-service plans, State reported utilization data show no discernable trends suggesting explosive
growth in Medicaid expenditures. Also, no State reported legislative or regulatory plans to
expand their Medicaid chiropractic benefit beyond current coverage.



COMMENTS

The Assistant Secretary for Management and Budget (ASMB) provided comments on this report.
ASMB asked us to further explain the growth in Medicaid chiropractic expenditures in the State
of Utah. We provided this information on page eight of this report. The full text of these
comments appears in Appendix A.




                                            )))))))))))
                                                 9
 APPENDIX A


TEXT OF AGENCY COMMENTS




        )))))))))))
           A - 1

)))))))))))
   A - 2

)))))))))))
   A - 3

